RULE 33.1(h) CERTIFICATE OF COMPLIANCE
No. 19Joslyn Manufacturing Co., LLC and Joslyn Corp.,
Petitioners,
v.
Valbruna Slater Steel Corp. and Fort Wayne Steel Corp.,
Respondents.
As required by Supreme Court Rule 33.1(h), I, Carter G. Phillips, certify that
the Petition for a Writ of Certiorari in the foregoing case contains 4,218 words,
excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on January 21, 2020.
/s/ Carter G. Phillips
CARTER G. PHILLIPS
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000

